Office of Inspector General
    Audit Report


   ENHANCED OVERSIGHT OF
   STAFFING AND TRAINING AT
  FAA'S CRITICAL FACILITIES IS
     NEEDED TO MAINTAIN
  CONTINUITY OF OPERATIONS
     Federal Aviation Administration

      Report Number: AV-2012-039
      Date Issued: January 12, 2012
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Enhanced Oversight of                                                        Date:    January 12, 2012
           Staffing and Training at FAA's
           Critical Facilities Is Needed To Maintain
           Continuity of Operations
           Federal Aviation Administration
           Report Number AV-2012-039

  From:    Jeffrey B. Guzzetti                                                               Reply to
                                                                                             Attn. of:   JA-10
           Assistant Inspector General
             for Aviation and Special Program Audits

    To:    Acting Federal Aviation Administrator

           Ensuring that the Federal Aviation Administration’s (FAA) most critical facilities
           are fully staffed with qualified air traffic controllers is vital to maintain the safety
           of the National Airspace System (NAS). Since fiscal year (FY) 2005, FAA has
           begun hiring and training over 12,000 new controllers to offset the impending
           retirements of those hired after the 1981 controller strike. With so many veteran
           controllers leaving, FAA faces the risk of not having enough certified professional
           controllers (CPC) 1 to operate its busiest and most complex air traffic control
           facilities. These include locations such as Southern California, Atlanta, Chicago,
           and New York, many of which now have newly hired controllers.

           At the request of the Chairman and Ranking Member of the Subcommittee on
           Transportation, Housing and Urban Development, and Related Agencies,
           Committee on Appropriations, we reviewed controller training and staffing at
           FAA’s most critical air traffic control facilities to determine if FAA is positioned
           to ensure the continuity of facility operations.

           This audit was conducted between October 2010 and October 2011 in accordance
           with generally accepted Government auditing standards. Exhibit A details our
           scope and methodology.


           1
               Certified Professional Controllers (CPCs) are controllers who have achieved full certification on all positions within
               their assigned area.
                                                                                                                 2


RESULTS IN BRIEF
Enhanced oversight of staffing and training at FAA's critical facilities is needed to
maintain continuity of air traffic operations. Critical facilities face a potential
shortage of CPCs as they have higher rates of retirement eligibility, controllers-in-
training, and training attrition than the national average. For example, 15 of the
21 critical facilities we reviewed had a higher percentage of their controllers in
training than the national average of 25 percent. Between FY 2008 and FY 2010,
critical facilities also lost 40 percent of their trainees to attrition, compared to the
national average of 24 percent. A contributing factor is that the complexity of the
locations makes it more difficult for inexperienced new hires to certify. Yet,
FAA’s national training program 2 has not provided critical facilities with the
training resources they need to help slow staffing shortfalls. As a result, some
facility managers have developed their own training programs to supplement lab
and classroom training. However, as FAA begins deploying Next Generation Air
Transportation System (NextGen) 3 technologies, critical facilities will require
even more training resources for both veteran and new controllers. Without a
consistent, national approach to address critical facilities’ staffing and training
needs now, it will be difficult in the short term for FAA to ensure continuity of
their operations and, in the long term, effectively transition them to NextGen.

We made five recommendations to assist FAA in ensuring the continuity of
operations at its most critical facilities.

BACKGROUND
Although all air traffic facilities are important to the operation of the NAS, we
focused our review on the staffing and training resources for 21 critical facilities.
These facilities were selected based on airspace complexity, number of operations,
and the number of air carriers serving that location. FAA concurred with our
determination that these facilities are critical. We acknowledge that this list is not
all inclusive, and other facilities may also be critical to NAS operations.

New air traffic controllers must complete an arduous training program that
includes learning the basic concepts of air traffic control at the FAA Academy,
followed by extensive facility training at their assigned location. Those controllers
who are unable to pass the training process are either (1) transferred within their
assigned facilities to a new area of operation, (2) transferred to a less complex
facility to begin the training process again, or (3) terminated from employment

2
    Air Traffic Control Optimum Training Solution (ATCOTS) is a critical component of FAA’s plans to hire and train
    15,000 new controllers by 2018. In 2008, FAA awarded a contract to Raytheon to provide training support for new
    and existing controllers and to help modernize the training program.
3
    NextGen refers to the ongoing transformation of the NAS from a ground-based system of air traffic control to a
    satellite based system of air traffic management.
                                                                                                                       3


with FAA. While certification times for individual controllers may vary, FAA’s
goal is to have candidates complete the training process in 2–3 years.

FAA HAS NOT ESTABLISHED THE STAFFING AND TRAINING
RESOURCES NEEDED AT ITS MOST CRITICAL FACILITIES
Despite critical facilities’ higher rates of retirement eligibility, controllers in
training, and attrition, FAA has not provided the staffing and training resources
they need to retain new hires. NextGen deployment over the next several years
will further strain training resources as both new hires and veteran controllers must
learn new air traffic procedures.

Controllers Eligible To Retire at Critical Facilities Exceed the National
Average
Critical facilities have higher levels of CPCs eligible to retire than the national
average. At the 21 facilities we reviewed, 32 percent 4 of CPCs on average, were
retirement eligible, compared to the national facility average 5 of 25 percent. This
is of particular concern at Terminal Radar Approach Control (TRACON)
locations. For example, we found that 65 percent of CPCs at the Dallas-Ft. Worth
TRACON and 51 percent of CPCs at the Chicago TRACON were eligible to retire
(see figure 1). Overall, 10 of the 21 critical facilities we reviewed had more than
25 percent of CPCs eligible to retire.




4
    According to retirement data collected from facility management during the site visits.
5
    The national average includes all FAA air traffic facilities regardless of the complexity, traffic volume, and number
    of air carriers serving that location.
                                                                                                                4


            Figure 1. Percentage of CPCs Eligible To Retire at Critical Facilities

              70.0%
              60.0%
              50.0%
              40.0%                                                     FAA’s National Average 25%
              30.0%
              20.0%
              10.0%
               0.0%




                                                                                         *No data provided



Source: OIG, based on data collected from air traffic facilities.

Moreover, more controllers may retire at these critical facilities than FAA expects.
While FAA has data on nationwide retirement eligibility rates, we found that 2 of
the 21 facilities could not provide the data. For example, the Potomac TRACON
staffing manager did not know how many controllers were eligible to retire and
has not provided this information to date. The Atlanta TRACON’s retirement
eligibility data was also unavailable at the time of our visit. FAA's plans for
projecting controller retirements are based on historical data, which suggest that
many controllers do not retire as soon as they become eligible. In 2010 only
16 percent of controllers retired the first year they were eligible, but those
remaining controllers are eligible to retire at any time.

Percentage of Controllers-in-Training at the Majority of Critical Facilities
Exceeded the National Average
Fifteen of the 21 critical facilities we reviewed had a higher percentage of
controllers in training than the national average, which was 25 percent in FY 2010.
For example, Denver TRACON and LaGuardia Air Traffic Control Tower
(ATCT) had 43 percent and 39 percent, respectively, of their workforce in training
(see figure 2 below). In June 2008, 6 we reported that facility managers and union
officials stated that to achieve effective controller training while maintaining daily
operations, the maximum percentage of developmental controllers should be
limited to between 20 and 25 percent of a facility’s total controller workforce.

6
    OIG Report Number AV-2008-055, “Review of the Air Traffic Controller Facility Training Program,” June 5, 2008.
    OIG reports are available on our Web site at http://www.oig.dot.gov/.
                                                                                                                      5


            Figure 2. Percentage of Workforce in Training at Critical Facilities




                                                                              FAA’s National Average 25%




Source: FAA, as of March 26, 2011

The percentage of controllers in training at critical facilities has increased due to
FAA’s hiring wave that started in FY 2005. 7 Some critical facilities have taken
measures to address the high volume of trainees. For example, the Chicago
O’Hare Tower is using CPCs to supplement classroom and simulation 8 training for
new hires. However, this makes it more difficult for CPCs to maintain normal
operation schedules while more of their time is used to train new controllers.

Training Attrition Rates at Critical Facilities Exceed the National Average
Training attrition rates at critical facilities exceed the national average rates.
Between FY 2008 and FY 2010, the average training attrition rate for critical
facilities was 40 percent, far above the national average of 24 percent (see figure 3
below).




7
    Since FY 2005 the FAA has taken action to hire and train over 12,000 new controllers to replace those hired after the
    1981controller strike.
8
    Simulation training reduces controllers’ overall training time and better prepares them for on-the-job training
    through exposure to different air traffic scenarios.
                                                                                           6


            Figure 3. Controller Training Attrition Rates at Critical Facilities,
                                     FYs 2008–2010




                                                              FAA’s National Average 24%




 Source: FAA National Training Database and Air Traffic Facilities

One reason for the growing training attrition rate at these sites is that FAA has
placed a large number of inexperienced new hires at its most critical and complex
air traffic control facilities. For example, at the New York TRACON, 77 percent
of new controllers who completed facility training between FY 2008 and FY 2010
did not become CPCs. Likewise, the Southern California TRACON had
200 controllers enter on-the-job training since September 2007, but as of January
2011—more than 3 years later—only 58 had certified. Conversely, in FY 2010,
the average certification time for controllers-in-training nationwide was
approximately 2 years for Terminal facilities.

Critical facility managers stated that these new hires require more training
resources and are less prepared to begin training. As a result, managers at several
of the higher-level terminal facilities we visited recently requested that FAA only
assign them controllers with prior air traffic experience (known as certified
professional controllers in training, or CPC-ITs).

Facility managers at some of the busiest critical facilities—such as the Chicago,
Atlanta, and Southern California TRACONs—also developed assessment tests to
evaluate potential transfers from lower level facilities. These managers plan to test
candidates with air traffic simulator problems based on operations at the facility.
Facility managers believe that selecting candidates based on their performance on
                                                                                                             7


a skills assessment is the key to improving the success rates of trainees. FAA
approved the assessment program for these three sites in May 2011.

FAA Has Not Provided Critical Facilities Adequate Training Resources and
Support
Despite critical facilities’ complexity and higher training and attrition numbers,
FAA has not provided adequate training support to all critical facilities. For
example, facility management at Albuquerque Center stated that FAA’s Air
Traffic Control Optimum Training Solution (ATCOTS) 9 program reduced their
training resources from 20 to 4 instructors, leaving the facility without enough
support to cover all training needs. Consequently, the facility is supplementing
training resources with CPCs, which reduces resources needed for effective air
traffic operations. This raises concerns over the effectiveness of the training
support that FAA’s ATCOTS provides. As we previously reported, FAA faces
significant challenges in achieving its goals for ATCOTS due to contract costs and
fees far exceeding baseline estimates. Moreover, those funds have only been
sufficient to support existing training methods and procedures; innovations to
reduce training time and cost have not been implemented.

This problem is largely due to FAA initially underestimating how many
controllers would need training when it launched ATCOTS. Our 2010 report
recommended that FAA evaluate Raytheon’s staffing methodology to determine
whether facilities are receiving sufficient training and administrative support. In
February 2011, the ATCOTS Program Office deployed a resource allocation tool
and training priority index for each air traffic facility. This tool incorporates
numerous factors such as air traffic complexity, staffing, training load, and impact
to the NAS. The ATCOTS Program Office uses this data-based analytical tool to
validate a facility’s staffing request. However, even with FAA’s new tool,
managers stated that they still do not have enough resources for an effective
training program. For example:

     • The Dallas TRACON used to provide training during two shifts a day;
       however, in FY 2010 the ATCOTS program office reduced the number of
       hours provided by contract instructors by 20 percent. As a result, the facility
       can only provide training during one shift a day.

     • FAA managers at the Washington Center stated that ATCOTS program office
       reduced the facility’s training resources by approximately 35 percent. As a
       result, they have to continuously modify their training program to keep up with
       the demand of training new hires arriving at the facility. Training requirements

9
    OIG Report No. AV-2010-126, “FAA’s Air Traffic Controller Optimum Training Solution Program: Sound Contract
    Management Practices Are Needed to Achieve Program Outcomes,” September 2010.
                                                                                       8


   at the Washington Center will be increasing as the facility received 28 new
   hires between April and August 2011.

We also found critical facilities that have a high volume of trainees but not enough
contract instructors to take full advantage of training simulators. For example, it is
difficult to schedule simulator sessions at Las Vegas TRACON because there are
not enough instructors. Likewise, the Washington Center is experiencing training
bottlenecks at the simulation laboratory because the facility does not have enough
training support to operate multiple labs.

The lack of available training resources from the ATCOTS program has led to
several managers developing their own training programs. For example, in 2009
the Southern California TRACON and NATCA collaborated to form a training
workgroup to supplement classroom and lab simulation training. The Southern
California TRACON relies on these training support resources to supplement
contract instructors and meet current training demands. At the Albuquerque
Center, managers assign a training team to each of the facility’s air traffic control
areas, which consist of a front line manager, a training specialist, and a contract
instructor. The goal is for controllers to receive more tailored training to help them
successfully certify.

FAA’s training mission will become more challenging as it begins to implement
NextGen capabilities, which will require retraining the entire controller workforce
in the NAS. It will be particularly difficult for critical facilities as they train large
numbers of new hires and simultaneously retrain veteran controllers on new
NextGen procedures. For example, over the next 2 years, the Las Vegas TRACON
is undergoing a major airspace redesign to optimize arrivals and departures. The
new airspace will require the facility to retrain all controllers. According to
management at the Las Vegas TRACON, the facility requires additional training
resources to staff its new tower simulator that will train new controllers within the
district. The facility requested eight instructors to train the new hires on the
simulator; however, they only received three additional instructors. As FAA
implements NextGen, managing the controller training program is critical to
ensure that instructor shortages do not impact new hire training.

CONCLUSION
The United States has one of the safest air traffic systems in the world, but the
continued safety of the NAS relies on having a fully staffed, well-trained air traffic
controller workforce. However, the Nation’s most critical air traffic control
facilities are facing significant staffing shortages of fully certified controllers
which could lead to potential risks to their daily operations. While FAA has begun
working to better allocate staffing, it still has not provided the training support
these complex facilities need to slow attrition and ensure the success of new hires.
                                                                                      9


Without a consistent staffing approach tailored to critical facilities’ needs, the
Agency will remain poorly positioned to prevent disruptions to air traffic
operations throughout the NAS and effectively transition its controllers to the next
generation of air traffic management.

RECOMMENDATIONS
To better ensure the continuity of operations at FAA’s most critical facilities, we
recommend that the Agency:

   1) Report annually on controller retirement eligibility, controllers in training,
      controller attrition, and hiring projections for all critical facilities in FAA’s
      controller workforce plan.

   2) Where appropriate, assign CPC-ITs to higher level critical terminal
      facilities as opposed to inexperienced new hires.

   3) Determine whether the skills assessment test implemented at several
      facilities would be beneficial at all critical terminal facilities.

   4) Implement best practices such as the training workgroups developed at the
      Southern California TRACON and the Albuquerque Center at other critical
      facilities where feasible.

   5) Review data collected since the deployment of the resource allocation tool
      to determine whether adjustments are needed at critical facilities to ensure
      adequate training resources are provided to meet the challenge of deploying
      NextGen.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to FAA on November 3, 2011. We received a
response from FAA on December 14, 2011, which is included in its entirety as an
appendix to this report. FAA partially concurred with recommendation 1 and
concurred with recommendations 2, 3, 4, and 5.

For recommendation 1, FAA stated that it agrees the recommended data
components are essential for assessing overall staffing status but does not agree
that the data should be part of the annual controller workforce plan. FAA believes
that including these data could reduce the clarity of the annual plan and result in a
misleading snapshot of facility staffing and hiring needs. Because FAA has agreed
to make these data available to FAA’s congressional committees of jurisdiction
and to our office, we consider this recommendation closed.
                                                                                   10


In its response, FAA expressed concern about the accuracy and consistency of the
retirement eligibility rates that we cite in this report for some critical facilities.
FAA stated that the retirement eligibility data provided to us by individual facility
managers did not match the data in FAA’s centralized personnel records database.
We utilized the data that we received from FAA facility managers in our analysis
because they were reported directly to us by each FAA facility responsible for
day-to-day air traffic operations. FAA has not reconciled these two sets of data
and should perform a review of controller retirement eligibility if the Agency is
concerned that headquarters and facility staff do not agree on the number of
controllers currently eligible to retire.

ACTIONS REQUIRED
We are closing recommendations 1, 2, and 5 since FAA has taken the actions
necessary to address them. FAA has also provided acceptable actions and
timeframes for recommendations 3 and 4, and we consider these recommendations
resolved but open until the planned actions are complete.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at 202-366-
0500 or Bob Romich, Program Director, at (202) 366-6478.

                                          #
                                                                                      11


EXHIBIT A. SCOPE AND METHODOLOGY

We conducted this performance audit in accordance with generally accepted
Government auditing standards prescribed by the Comptroller General of the
United States. As required by those standards, we obtained evidence that we
believe provides a reasonable basis for our findings and conclusions based on our
audit objective. The audit was conducted between October 2010 and October
2011, and included site visits to Federal Aviation Administration (FAA)
Headquarters and 21 FAA critical facilities (see Exhibit B). We determined the
critical facilities based on many factors, including complexity of airspace, number
of operations, air traffic controller staffing levels, and the number of air carriers
serving that location. FAA concurred with our selection consisting of 16 Terminal
facilities (7 Air Traffic Control Towers and 9 Terminal Radar Approach Control
facilities or TRACONs) and 5 En Route Centers.

During the audit, we interviewed FAA Headquarters officials and collected
training and staffing data from the Financial Analysis and Process Reengineering
Office and the Office of Technical Training (AJL). We also collected safety
related data regarding operational errors during on-the-job training from the
Director of Safety, Quality Assurance Office (AJS). In addition, we conducted site
visits to all 21 critical facilities: 6 during the survey phase of the audit and 15
during the verification phase. During the site visits, we collected staffing and
training data and interviewed FAA management, including Staff and Training
Support Managers, to obtain their opinions about the staffing levels and the
training program at each of the facilities. We compared the data collected during
the site visits to the data provided by FAA Headquarters. Finally, we analyzed the
data collected to evaluate FAA’s plan to staff and train controllers at the Agency’s
most critical air traffic control facilities and determine significant trends in staffing
composition, training, retirements, attrition, and hiring.

To determine whether FAA has adequate resources to staff its critical facilities, we
collected and analyzed staffing data from FAA Headquarters and during the site
visits to determine the staffing range and composition for each of the 21 facilities.
We also determined the number of controllers eligible to retire at each facility, as
well as the number approaching mandatory retirement in the next two years. In
addition, we collected controller productivity reports (e.g., overtime, operations
per year). We compared the data collected during site visits to the data provided
by FAA Headquarters to identify discrepancies, if any.

To evaluate FAA’s plan to train controllers at these 21 facilities and determine
whether adequate training resources exist, we discussed training support and the
impact of training on safety with facility management during our site visits. In



Exhibit A. Scope and Methodology
                                                                                 12


addition, we collected and analyzed training data, including attrition rates between
FY 2008 and FY 2010, from FAA Headquarters, the Office of Technical Training.




Exhibit A. Scope and Methodology
                                                                       13


EXHIBIT B. FACILITIES VISITED OR CONTACTED

Atlanta Air Route Traffic Control Center (ZTL)

New York Air Route Traffic Control Center (ZNY)

Washington Air Route Traffic Control Center (ZDC)

Chicago Air Route Traffic Control Center (ZAU)

Albuquerque Air Route Traffic Control Center (ZAB)

Southern California Terminal Radar Approach Control (SCT)

New York Terminal Radar Approach Control (N90)

Potomac Consolidated Terminal Radar Approach Control (PCT)

Chicago Terminal Radar Approach Control (C90)

Dallas Terminal Radar Approach Control (D10)

Houston Terminal Radar Approach Control (I90)

Denver Terminal Radar Approach Control (D01)

Las Vegas Terminal Radar Approach Control (L30)

Atlanta Terminal Radar Approach Control (A80)

Atlanta International Air Traffic Control Tower (ATL)

Chicago O’Hare Air Traffic Control Tower (ORD)

Denver Air Traffic Control Tower (DEN)

John F Kennedy Air Traffic Control Tower (JFK)

Newark Air Traffic Control Tower (EWR)

La Guardia Air Traffic Control Tower (LGA)

Miami Combined Air Traffic Control Tower and Terminal Radar Approach
Control (MIA)




Exhibit B. Facilities Visited or Contact ed
                                                           14

EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

Robert Romich                           Program Director

Adrienne Williams                       Project Manager

Benjamin Huddle                         Senior Analyst

Tasha Thomas                            Senior Analyst

Doneliya Deneva                         Auditor

Aaron Rodgers                           Analyst

Audre Azuolas                           Writer/Editor




Exhibit C. Major Contributors to This Report
                                                                                          15
APPENDIX. AGENCY COMMENTS


                     Federal Aviation
                     Administration

Memorandum
Date:
To:           Jeffrey B. Guzzetti, Assistant Inspector General for Aviation and Special
              Program Audits
From:         H. Clayton Foushee, Director, Office of Audit and Evaluation (AAE-1)
Subject:      Office of Inspector General (OIG) Draft Report on Staffing and Training at
              Critical Facilities


Since the Federal Aviation Administration (FAA) increased air traffic controller hiring in
the mid-2000’s to replace the anticipated retirement of those hired after the 1981
controller strike, the agency has progressively improved how controllers are hired,
assigned, trained, certified and transferred so that facilities across the country have
adequate staffing to provide safe and efficient operations in the National Airspace System
(NAS). The FAA has produced more than 5,000 Certified Professional Controllers
(CPCs) over the past five years and has in place a hiring and training plan that is
responsive to changes in traffic and in the controller workforce. In 2011, the agency
certified 1,000 controllers by the end of July, meeting the fiscal-year goal two months
ahead of schedule. The FAA also continues to meet the overall goals for hiring, time-to-
certification and number of controllers certified.

Additional steps being taken to improve controller staffing and training include:

      o Innovative Screening - The FAA is piloting the Operational Assessment
        Program (OAP), which screens applicants who want to transfer to Level 10 and
        above Terminal Radar Approach Control (TRACON) facilities. Additional
        description is included in the response to recommendation three below.

      o Enhanced Training - The FAA deployed additional simulators and training
        equipment to the field to expand the use of “e-learning” content delivery, enhance
        realism for training scenarios, and increase automation. Additional description is
        included in the response to recommendation five below.




Appendix. Agency Comments
                                                                                                16
    o Improved Oversight - The agency improved its oversight of the Air Traffic
      Control Optimum Training Solution (ATCOTS) contract, which is a supplemental
      training resource for air traffic facilities. Additional description is included in the
      response to recommendation five below.

    o Best Practices - In April 2011, FAA initiated an in-depth review of air traffic
      controller training utilizing five individuals with significant experience in
      aviation-related training and safety programs together to delve into air traffic
      training as part of a nationwide Call to Action on air traffic control safety and
      professionalism. Additional description is included in the response to
      recommendation four below.

The FAA has some concerns about the accuracy and consistency of the retirement
eligibility statistics in the OIG draft report. Specifically, because OIG relied upon
individual facility reports rather than a centralized personnel database, there appear to be
inaccuracies and inconsistencies in OIG’s reported figures. For example, the OIG’s
reported retirement eligibility rate for ZAU assumes that 176 certified controllers were
retirement eligible as of March 2011, while data from FAA personnel records indicated
that only 113 met the age and service criteria necessary for retirement eligibility.
Overall, based upon data from centralized FAA personnel records, retirement eligibility
rates at the identified critical facilities are similar to those at all other facilities.

FAA has devoted considerable effort and resources to ensuring that it hires, trains, and
places the controller workforce as effectively as possible, nonetheless significant
challenges remain. For example, we recognize the “failure rate” is unacceptably high at a
number of key facilities and efforts to specifically address this and other issues are
underway.

RECOMMENDATIONS AND RESPONSES

OIG Recommendation 1: Report annually on controller retirement eligibility,
controllers in training, controller attrition, and hiring projections for all critical facilities
in FAA’s controller workforce plan.

FAA Response: Partially concur. The FAA currently generates the recommended data
during its annual update to the Air Traffic Controller Workforce Plan. FAA agrees that
these data components are essential in helping to assess the overall staffing status at FAA
air traffic facilities; however, we do not concur that including this detailed data in the
published “Workforce Plan” for the facilities identified in this report will enhance the
utility of the report for Congress, the general public, or other key stakeholders, and we
are concerned that in this context it could actually reduce clarity.

Data such as retirement eligibility, trainee percentage, and controller attrition play a
significant role in performing the analysis necessary to generate information on air traffic
controller staffing and hiring needs. FAA completes a rigorous analytical process each
year to examine the retirement eligibility profile of the current workforce, to develop



Appendix. Agency Comments
                                                                                            17
detailed retirement and attrition forecasts, and to estimate the impact of future new hire
demand on each facility’s training capacity. All of these components work together to
present a more complete picture of facility staffing and hiring needs, but a one-year
facility staffing snapshot may be misleading. For example, even at an aggregate level,
there may be significant divergence between retirement eligibility and actual retirements,
which can produce a misleading snapshot. Specifically, while more than 3,600 air traffic
controllers were eligible to retire in fiscal year (FY) 2011, only 15% (554) actually
retired. Accordingly, providing retirement eligibility information requires considerable
context. Such analysis becomes subject to an even more complex set of variables and
uncertainty at the individual facility level. For example, FAA tracks net attrition at each
facility, so that a certified controller who transfers between facilities (i.e., a CPC-IT) will
be a loss for one facility, but a gain for another facility. Accordingly, some facilities
actually have more gains than losses, which results in a negative loss rate.

Overall, while we agree that this data provides useful input to FAA’s staffing analysis,
we do not agree that it would be a useful or constructive addition to the annual controller
workforce plan output. The FAA is however, happy to share this data with OIG and
others, as appropriate, and requests that this recommendation be closed.

OIG Recommendation 2: Where appropriate, assign CPC-ITs to higher level critical
terminal facilities as opposed to inexperienced new hires.

FAA Response: Concur. In order to staff NAS-critical facilities with experienced
controllers, beginning in FY 2011, the Terminal Services organization restricted
placement of inexperienced new hires (such as from the general public and Collegiate
Training Initiative hiring sources) into Level 11 and 12 facilities. To attract internal CPC
movement to the critical facilities, the FAA offered Permanent Change of Station funds
and relocation bonuses. During the year, the FAA opened vacancy announcements
seeking CPC volunteers to transfer to NAS-critical facilities. There is an open-
continuous vacancy announcement for New York TRACON and the FAA distributed a
recruitment video to promote Chicago TRACON. The agency held three centralized
selection panels to select new-hire controllers, and selecting officials carefully reviewed
hundreds of applications to determine the best candidates for air traffic control positions
at the various ATC Level facilities. The FAA met all FY 2011 hiring goals. For FY
2012, some NAS-critical facilities have requested a combination of experienced ATC
new hires, including former military/FAA controllers, and CPC-IT transfers. The actions
taken to address this recommendation were completed in October 2011, and we request
that this recommendation be closed.

OIG Recommendation 3: Determine whether the skills assessment test implemented at
several facilities would be beneficial at all critical terminal facilities.

FAA Response: Concur. The FAA is pilot testing the Operational Assessment Program
(OAP), which screens applicants who want to transfer to Level 10 and above TRACON
facilities. The program includes a knowledge exam and skills assessment as part of the
pre-selection criteria, providing the hiring manager with additional data to consider in



Appendix. Agency Comments
                                                                                            18
making the hiring decisions. OAP is intended to screen out applicants who lack skills to
succeed at more complex and NAS-critical facilities. Chicago TRACON is the first
facility to use the program, completing assessments on 39 CPCs bidding to that facility in
fiscal year 2011. Southern California and Atlanta TRACONs are also OAP pilot sites.

The OAP has been developed for use at only these key sites and could not be used at
other TRACONs without additional revision and development. Nevertheless, the FAA
intends to review initial results of the pilot program by June 2012. The agency also
intends to collect longitudinal data, including certification rates of CPCs selected during
the pilot program. We anticipate that it will take up to two years to gather and evaluate
sufficient data to indicate if OAP has actually improved certification rates at the key sites.
Estimated completion date is July 1, 2014.

OIG Recommendation 4: Implement best practices such as the training workgroups
developed at the Southern California TRACON and the Albuquerque Center at other
critical facilities where feasible.

FAA Response: Concur. The FAA already implements training teams and coordination
groups at various levels to discuss training and share best practices. In April 2011, the
FAA brought five individuals with significant experience in aviation-related training and
safety programs together to delve into air traffic training as part of a nationwide, “Call to
Action,” on air traffic control safety and professionalism. The Independent Review Panel
(IRP) spent three months conducting fact-finding work and in-depth discussions with
FAA leadership, union representatives, on-the-job training instructors, certified
controllers, and certified professional controllers in training and training staff. The panel
produced 49 recommendations and offered actionable suggestions for selecting new
hires, training at the FAA Academy, assigning employees to operational facilities,
keeping employee records, field training, simulation strategy, on-the-job training
instructors, professional standards and organizational structure, among others. The report
serves as a roadmap to increase workforce effectiveness for the FAA. As a result of the
recommendations, we expect to significantly change how controllers are screened, hired,
placed and trained. Through changes in how we evaluate employee skills and abilities
earlier in the training program, we anticipate becoming more effective in staffing
decisions. The ATO has established a team to oversee review and implementation of the
Panel recommendations. Many of the recommendations are aligned with what the OIG
found during this audit.

A collaborative team with headquarters, field management, training specialists and
National Air Traffic Controllers Association (NATCA) representatives is developing a
refresher/recurrent training program with input from many different facilities. A similar
effort to improve skills of on-the-job training instructors is also underway, with another
collaborative workgroup evaluating feedback from more than 500 controllers at different
air traffic facilities. Developing a best practices database that instructors could utilize to
adapt skills and training tactics was one of the IRP recommendations, and we will
continue to look for opportunities to share best practices. However, the best practices of
Southern California TRACON or Albuquerque Center may not be appropriate at all



Appendix. Agency Comments
                                                                                         19
facilities. Staffing, availability of equipment or operations at facilities may preclude
training teams being configured the same way at every facility. A central clearinghouse
for best practices and more collaborative work groups will facilitate the sharing of
information. Estimated completion date is mid-year 2012.

OIG Recommendation 5: Review data collected since the deployment of the resource
allocation tool to determine whether adjustments are needed at critical facilities to ensure
adequate training resources are provided to meet the challenge of deploying NextGen.

FAA Response: Concur. A resource prioritization tool (Resource Allocation Tool) is
now being used to determine priorities based on “training need.” The need is primarily
based upon facility staffing levels (assigned versus authorized), trainer-to-trainee ratio
and the employees’ phase in training (contract instructors are able to make more impact
in a student’s early phases of training). The goal was to develop an objective tool that
can measure the training need of facilities without subjective input. Thus, the ATO is
now able to compare the needs between an En Route and a Terminal facility, a Level 12,
and a Level 6 facility. The tool assigns a priority index for each facility, but a team
representing the program office, contractor, service unit, and operational facility
determines actual deployment of resources. This review occurs frequently, but at least
once a quarter to determine whether adjustments are needed.

FAA also took action to increase the availability of training and tools. For example, FAA
deployed additional simulators and training equipment to the field to expand use of “e-
learning” content delivery, enhance realism for training scenarios, and increase
automation. The agency installed the SimFast terminal radar simulator capability at more
than 50 locations previously without access to a terminal radar simulator. We deployed
six additional Tower Simulator Systems to the field and the FAA Academy during 2011.
By increasing use of simulators for refresher training, controllers have the opportunity to
hone air traffic skills and increase technical proficiency.

The FAA also improved oversight of the Air Traffic Control Optimum Training Solution
(ATCOTS) contract, which is a supplemental training resource for air traffic facilities.
ATCOTS resources are available at approximately 160 facilities and the FAA Academy
based on available funding and training needs at the facilities. The agency conducted a
top-to-bottom review of the contract staffing strategy to ensure facility contract support
budgets are based on an objective evaluation of training need. The ATO also requires
monthly updates to the ATCOTS Annual Work Plan (AWP). Technical On-Site
Representatives (TORs) communicate new or modified requirements that are critical to
their facility's training needs and the program office and training management reviews all
resources available to fulfill this request. If we determine that the ATCOTS contract will
be used to fulfill this request, then these updates will be communicated through the En
Route and Terminal service unit liaisons or Service Areas training staff, who will review
and validate the requirements. Subsequently, these requirements will be sent to the
contractor via the monthly AWP updates or Baseline Change Request process.
Sometimes, this may involve redirecting the contract budget from a low priority high-
level facility to a higher-priority lower level facility because our analysis indicates



Appendix. Agency Comments
                                                                                         20
contractors would greater impact training at the lower level facility. A portion of the
contractor’s award fee is tied to how successful it is in meeting our staffing requirements.
Actions taken with regard to this recommendation are complete, and we request that it be
closed.




Appendix. Agency Comments
